Supreme Court, U.S.
FILED

WAIVER

FEB 2 G 2021

Supreme Court of the United Stat

FFICE OF THE CLERK

No. 20-1109
Arrowhead Credit Union
(Respondent)

George C. Chatman
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the court.
Please check the appropriate boxes:
it Please enter my appearance as Counsel of Rec9rd for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.

oix

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
February 25, 2021

Date:
(Type or

Colleen A. Deziel

print) Name

0 Mr.

01 Ms.

0 Mrs.

0 Miss

Anderson, McPharlin & Conners

Firm

707 Wilshire Boulevard, 40th Floor
Address
Los Angeles, col1/4

City & State
Phone

Zip

90017

(213) 236-1635

SEND A COPY OF. THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Chatman
George C. Chatman
2350 Osbun Street, Unit 15
San Bernardino, CA 92404

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

RECEIVED
MAR 2 2021
OFFICE OF THE CLERK
UPREME COURT US.

1

PROOF OF SERVICE

2

George C. Chatman v. Arrowhead Credit Union
Supreme Court of the United States — Case No. 20-1109

3
STATE QF CALIFORNIA, COUNTY OF LOS ANGELES
4
At the time of service, I was over 18 years of age and not a party to this action. I am
5 employed in the County of Los Angeles, State of California. My business address is 707 Wilshire
Boulevard, Suite 4000, Los Angeles, California 90017-3623.
6
On February 26, 2021, I served true copies of the following document(s) described as
7 WAIVER on the interested parties in this action as follows:
8 George C. Chatman
235Q Osbun Street, Unit 15
9 San Bernardino, CA 92404
Telephone: (909) 882-1693
10
a

0 N co
0 CON.
d' CO
til
N
N

g (1 c21
i
,LU2 < 0 1

a3

—1 1..
- '

a.

U

0 < CO

m0o

w ui 9
cc w co
I U.1 ...„
CD
lb0
Z C.)
< csi

CA —i
h CO '-0 0 --I
h ...1

g

Plaintiff in Pro Per

BY MAIL: I enclosed the document(s) in a sealed envelope or package addressed to the
persons at the addresses listed in the Service List and placed the envelope for collection and
12 mailing, following our ordinary business practices. I am readily familiar with the practice of
Anderson, McPharlin & Conners LLP for collecting and processing correspondence for mailing.
On
the same day that correspondence is placed for collection and mailing, it is deposited in the
13
ordinary course of business with the United States Postal Service, in a sealed envelope with
postage fully prepaid. I am a resident or employed in the county where the mailing occurred. The
14
envelope was placed in the mail at Los Angeles, California.
15
I declare under penalty of perjury under the laws of the State of California that the
foregoing
is true and correct.
16
11

17

Executed on February 26, 2021, at Los Angeles, California.

18
19
20
21
22
23
24
25
26
27
28

Justin L. Stovall

